IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1231, 19-1241
Federal Communications Commission, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
National Association of Broadcasters, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
CERTIFICATE OF SERVICE
.
I certify that on December 23, 2020, I had delivered by commercial courier 40 copies of the Brief
Amicus Curia of Public Knowledge in Support of Prometheus Radio Project, et al., in the above
captioned proceeding. All parties requiring to be served were sent the required number of copies
by third-party commercial carrier for delivery within 3 days to the following parties:
Counsel for the US and FCC:
Jeffrey B. Wall
Acting Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave. NW
Washington, DC 20530-0001.
Counsel for Petitioner National Association of Broadcasters:
Helgi C. Walker
Jacob T. Spencer
Max E. Schulman
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
hwalker@gibsondunn.com
Counsel for Prometheus Radio Project et al.:
Ruthanne M. Deutsch
Hyland Hunt

Deutsch Hunt PLLC
300 New Jersey Ave. NW Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com
Counsel for Independent Television Group:
Jack N. Goodman
1200 New Hampshire Ave, NW Suite 600
Washington, DC 20036-6802
jack@jackngoodman.com
202-776-2045
Executed on December 23, 2020
/s/ Harold Feld

(

COUNSEL OF RECORD
PUBLIC KNOWLEDGE
1818 N. ST., NW
SUITE 410
WASHINGTON, DC 20036
202) 559-1044

